<html>
<title> - EMPOWERING STUDENTS AND FAMILIES TO MAKE INFORMED DECISIONS ON HIGHER EDUCATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                EMPOWERING STUDENTS AND FAMILIES TO MAKE
                 INFORMED DECISIONS ON HIGHER EDUCATION

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 24, 2017

                               __________

                           Serial No. 115-17

                               __________

  Printed for the use of the Committee on Education and the Workforce




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-426 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Paul Mitchell, Michigan              Lisa Blunt Rochester, Delaware
Tom Garrett, Jr., Virginia           Raja Krishnamoorthi, Illinois
Lloyd K. Smucker, Pennsylvania       Carol Shea-Porter, New Hampshire
A. Drew Ferguson, IV, Georgia        Adriano Espaillat, New York
Ron Estes, Kansas

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   BRETT GUTHRIE, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Lou Barletta, Pennsylvania             Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan,
Paul Mitchell, Michigan                Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
Ron Estes, Kansas                    Adriano Espaillat, New York






















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 24, 2017.....................................     1

Statement of Members:
    Davis, Hon. Susan A., Ranking Member, Subcommittee on Higher 
      Education and Workforce Development........................     5
        Prepared statement of....................................     6
    Guthrie, Hon. Brett, Chairman, Subcommittee on Higher 
      Education and Workforce Development........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Benton, Mr. Andrew K., President and Chief Executive Officer, 
      Pepperdine University......................................    51
        Prepared statement of....................................    53
    Delisle, Mr. Jason, Resident Fellow, American Enterprise 
      Institute..................................................    25
        Prepared statement of....................................    27
    Schneider, Dr. Mark, Vice President, American Institutes for 
      Research...................................................     8
        Prepared statement of....................................    10
    Voight, Ms. Mamie, Vice President of Policy Research, 
      Institute for Higher Education Policy......................    39
        Prepared statement of....................................    41

Additional Submissions:
    Messer, Hon. Luke, a Representative in Congress from the 
      State of Indiana:
        Letter dated May 24, 2017 from the Consumer Bankers 
          Association............................................    88
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado:
        Bicameral College Act....................................    69
    Questions submitted for the record by:
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the State of Oregon....................................   113
        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina 




        Mitchell, Hon. Paul, a Representative in Congress from 
          the State of Michigan 





    Responses to questions submitted for the record:
        Mr. Benton...............................................   101
        Mr. Delisle.............................................104-105
        Dr. Schneider............................................   106
        Ms. Voight..............................................111-114
 
                  EMPOWERING STUDENTS AND FAMILIES TO
              MAKE INFORMED DECISIONS ON HIGHER EDUCATION

                              ----------                              


                        Wednesday, May 24, 2017

                        House of Representatives

               Committee on Education and the Workforce,

       Subcommittee on Higher Education and Workforce Development

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 2175, Rayburn House Office Building. Hon. Brett Guthrie 
[chairman of the subcommittee] presiding.
    Present: Representatives Guthrie, Thompson, Messer, 
Grothman, Stefanik, Allen, Lewis, Mitchell, Garrett, Estes, 
Davis, Courtney, Adams, DeSaulnier, Krishnamoorthi, Polis, 
Blunt Rochester, and Espaillat.
    Also Present: Representatives Foxx, Scott (VA), and 
Bonamici.
    Staff Present: Bethany Aronhalt, Press Secretary; Andrew 
Banducci, Workforce Policy Counsel; Caitlyn Burke, Legislative 
Assistant; Courtney Butcher, Director of Member Services and 
Coalitions; Ed Gilroy, Director of Workforce Policy; Emmanual 
Guillory, Professional Staff Member; Amy Raaf Jones, Director 
of Education and Human Resources Policy; Nancy Locke, Chief 
Clerk; Dominique McKay, Deputy Press Secretary; Jake 
Middlebrooks, Legislative Assistant; James Mullen, Director of 
Information Technology; Communications Director; Krisann 
Pearce, General Counsel; Alexandra Pena, Staff Assistant; Alex 
Ricci, Legislative Assistant; Molly McLaughlin Salmi, Deputy 
Director of Workforce Policy; Mandy Schaumburg, Education 
Deputy Director and Senior Counsel; Emily Slack, Professional 
Staff Member; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Press Assistant; Jacque 
Chevalier, Minority Education Policy Director; Mishawn Freeman, 
Minority Staff Assistant; Veronique Pluviose, Minority General 
Counsel; and Katherine Valle, Minority Education Policy 
Advisor.
    Chairman Guthrie. A quorum being present, the Subcommittee 
on Higher Education and Workforce Development will come to 
order.
    Good morning. And welcome to today's subcommittee hearing. 
I would like to thank our panel of witnesses and my colleagues 
for joining today's important discussion on higher education 
and transparency.
    Many people in this country grow up dreaming about the 
college experience, leaving home and starting off in their own 
world, hoping to obtain the education and skills they need to 
be successful in life. With more than 7,000 postsecondary 
institutions in the U.S. to choose from, selecting the best 
schools and finding the best way to pay for it can be a 
daunting task.
    In fact, just this morning some key details of a new report 
said to be fully unveiled early next month were publicly 
released, and they provide some fresh insights into how 
prospective students make important decisions that affect their 
long-term academic and professional futures.
    According to the preliminary findings of a national survey 
conducted by Gallup, in partnership with the Strada Education 
Network, most people rely on a family member or relative when 
deciding which major or field to choose. As well, as we all 
know, this decision often impacts which college or university a 
person decides to attend.
    Fortunately, there are those who are relying on trusted 
high school counselors or college advisors. Very few turn to 
online resources, including websites maintained by the schools. 
But it is also troubling to learn that more than 20 percent of 
individuals with some college experience never sought the 
advice of anyone or used any other available resources as they 
made these important decisions.
    Without objection, I would like to submit to the record a 
letter from Strada highlighting some of the key findings of 
this national survey. Hearing no objections, the letter will be 
made part of the record.
    In 2008, Congress took steps to improve transparency in 
higher education. Because of these reforms, colleges and 
universities were making information about price, financial 
aid, and demographics, and graduation rates more readily 
available to the public. Many of these initiatives provide 
helpful resources to students and their families, but clearly 
there is more work to be done.
    First, much of the information currently available is about 
first-time, full-time students, despite the fact that only 21 
percent of the undergraduate students are attending 
postsecondary education full-time and for the first time. 
Today's college students come from a variety of backgrounds 
that no longer neatly fits into the traditional full-time 
student schedule, which is why they need information that 
properly reflects the unique circumstances they face.
    Secondly, we want to be sure that institutions are not 
overburdened with red tape. Collecting this information can be 
time-consuming. The Integrated Postsecondary Education Data 
System, also known as IPEDS, currently requires institutions to 
complete 12 separate surveys capturing hundreds of pages of 
data, taking nearly 1 million combined hours each year to 
complete. The time and money universities and colleges spend on 
data collection requirements can lead to higher costs that 
inevitably affect the students who attend.
    Third, it is important that we as policymakers can properly 
evaluate the success of the Federal Student Aid System and 
ensure taxpayer dollars are being used responsibly. 
Unfortunately, in many ways, that is just not the case today. 
Much of the information surrounding students defaulting on 
their loans is unknown.
    We don't know how much they have paid back before 
defaulting on the loan. We also don't know the type of 
repayment plans they are using when they default. We also don't 
know how much the various income-driven repayment programs are 
really costing taxpayers or how many students who receive a 
Pell Grant are actually graduating. Quite frankly, we really 
don't know what is working and what is not. As policymakers, we 
need to be better equipped to conduct proper oversight of how 
tax dollars are being spent.
    Lastly, but most importantly, we must balance the need for 
transparency and accountability with the need to protect 
student privacy and maintain a limited Federal role. Striking 
that balance is never easy; however, the need to provide 
students and policymakers with more information, no matter how 
valuable that information may be, should never come at the 
expense of student privacy.
    At the end of the day, the college experience should be a 
joyous occasion for students and their families. That is why it 
is important for the Federal student aid system to be efficient 
and effective. And that is why it is important to do everything 
we can to provide better transparency so students are able to 
make informed decisions.
    As we work to reauthorize the Higher Education Act, 
empowering students and families and improving accountability 
will be leading priorities.
    I am looking forward to hearing the testimonies of this 
panel of witnesses who have great insight into how we can do 
just that.
    Thank you, again, for your attendance. I now recognize 
Chairwoman Foxx for a brief comment.

  Prepared Statement of Hon. Brett Guthrie, Chairman, Subcommittee on 
               Higher Education and Workforce Development

    Many people in this country grow up dreaming about the college 
experience--leaving home and starting off on their own in the world--
hoping to obtain the education and skills they need to be successful in 
life. With more than 7,000 postsecondary institutions in the U.S. to 
choose from, selecting the best school and finding the best way to pay 
for it can be a daunting task.
    In fact, just this morning, some key details of a new report--set 
to be fully unveiled early next month--were publicly released, and they 
provide some fresh insights into how prospective students make 
important decisions that affect their long-term academic and 
professional futures.
    According to the preliminary findings of a national survey 
conducted by Gallup in partnership with the Strada Education Network, 
most people rely on a family member or relative when deciding which 
major or field to choose. And as we all know, this decision, often 
impacts which college or university a person decides to attend.
    Fortunately, there are those who are relying on trusted high school 
counselors or college advisors. Very few turn to online resources, 
including websites maintained by schools. But it is also troubling to 
learn that more than 20 percent of individuals with some college 
experience never sought the advice of anyone or used any other 
available resources as they made these important decisions.
    Without objection, I would like submit for the record a letter from 
Strada highlighting some of the key findings of this national survey. 
Hearing no objections, the letter will be made a part of the record.
    In 2008, Congress took steps to improve transparency in higher 
education. Because of those reforms, colleges and universities are 
making information about price, financial aid, demographics, and 
graduation rates more readily available to the public. Many of these 
initiatives provide helpful resources to students and their families, 
but clearly there is more work to be done.
    First, much of the information currently available is about first-
time, full-time students--despite the fact that only 21 percent of 
undergraduate students are attending postsecondary education full-time 
and for the first-time. Today's college students come from a variety of 
backgrounds that no longer neatly fits into the traditional full-time 
student schedule, which is why they need information that properly 
reflects the unique circumstances they face.
    Secondly, we want to be sure that institutions are not overburdened 
with red tape. Collecting this information can be time-consuming. The 
Integrated Postsecondary Education Data System, also known as IPEDS, 
currently requires institutions to complete 12 separate surveys 
capturing hundreds of pages of data taking nearly one million combined 
hours each year to complete. The time and money universities and 
colleges spend on data collection requirements can lead to higher costs 
that inevitably affect the students who attend.
    Third, it's important that we as policymakers can properly evaluate 
the success of the federal student aid system and ensure taxpayer 
dollars are being used responsibly. Unfortunately, in many ways, that's 
just not the case today.
    Much of the information surrounding students defaulting on their 
loans is unknown. We don't know how much they've paid back before 
defaulting on the loan. We also don't know the type of repayment plans 
they are using when they default. We also don't know how much the 
various income-driven repayment programs are really costing taxpayers 
or how many students who receive a Pell grant are actually graduating.
    Quite frankly, we don't really know what's working and what's not. 
As policymakers, we need to be better equipped to conduct proper 
oversight of how taxpayer dollars are being spent.
    Lastly, but most importantly, we must balance the need for 
transparency and accountability with the need to protect student 
privacy and maintain a limited federal role. Striking that balance is 
never easy. However, the need to provide students and policymakers with 
more information--no matter how valuable that information may be--
should never come at the expense of student privacy.
    At the end of the day, the college experience should be a joyous 
occasion for students and their families. That's why it's important for 
the federal student aid system to be efficient and effective. And 
that's why it is important to do everything we can to provide better 
transparency so students are able to make informed decisions.
    As we work to reauthorize the Higher Education Act, empowering 
students and families and improving accountability will be leading 
priorities. I'm looking forward to hearing the testimonies of this 
panel of witness who will have great insight into how we can do just 
that. Thank you, again, for your attendance.
                                 ______
                                 
    Mrs. Foxx. Thank you very much, Chairman Guthrie. I would 
like to take a moment to thank one of our staffers who served 
this committee now for more than 7 years and spent a total of 
10 years here in the House. Today is Brian Newell's final 
committee hearing.
    As our committee communications director, Brian has truly 
been an invaluable member of our team. Beginning under Former 
Chairman Kline's leadership he played a critical role in the 
committee's bipartisan efforts surrounding the Workforce 
Innovation and Opportunity Act, the Every Student Succeeds Act, 
and the Multiemployer Pension Reform Act of 2014.
    During my time as chair, I have gotten to know Brian 
personally, and he has been a joy to work with.
    I know I am speaking for all members of the committee in 
expressing our gratitude for Brian's hard work and dedication 
over the years.
    Thank you, Brian. We wish you the best of luck in your new 
venture, and know there are exciting opportunities in store for 
you, but we are going to miss you.
    Chairman Guthrie. I also recognize Ranking Member Scott for 
a brief comment.
    Mr. Scott. Thank you. And I want to join the accolades. 
This committee has a lot of issues for which we can agree and a 
lot we disagree. And being able to work on those that we agree 
depends on cooperative attitude amongst the members, but also 
the staff. And I want to thank Brian for his good work, 
particularly on the Multiemployer Pension Plan that we worked 
on together. And also, just being a travel companion on the 
codel we took.
    So, I want to wish you well on your future endeavors. And 
thank you and the rest of the staff for the cooperative way 
that we can work together on those that we agree on.
    Thank you, and I yield back.
    Chairman Guthrie. Thank you. Again, thanks, Brian. I 
appreciate it. I now recognize my distinguished colleague, the 
subcommittee's ranking member, Susan Davis, for her opening 
remarks.
    Ms. Davis. Thank you. Thank you, Chairman Guthrie. And 
thank all of you, our witnesses, for being here today. I 
certainly look forward to your testimony.
    You know, as Chairman Guthrie noted, the profile of our 
students attending college today looks much different than it 
did when the Federal Government began collecting data on 
colleges and universities in the mid-'60s. Back then your 
typical student was a white 18-year-old male, going to college 
from high school in order to pursue intangible benefits. Today, 
our students are older; they are attending college part-time 
while balancing many priorities, like children and work; and 
they are also from more socioeconomically and racially diverse 
families than their peers of decades past.
    Many of them are first in their family to go to college and 
have attended more than one institution throughout their 
college education. And more and more, students are going to 
college to receive tangible benefits, a decent chance of 
getting a job with a living wage and health benefits.
    But our current postsecondary data system doesn't reflect 
that, doesn't reflect today's students. Our most comprehensive 
database, the federally mandated Integrated Postsecondary 
Education Data System, more commonly referred to as IPEDS, 
leaves many students unaccounted for.
    Some students, for example, are unable to attend college in 
the fall right after high school due to financial setbacks or 
inability to line up child care. And schools, particularly 
community colleges, they allow for that flexibility, but, of 
course, many do not.
    However, many of the enrollment figures in IPEDS only 
account for students who first enrolled in the fall and leave 
out students who may have enrolled in the spring.
    What is worse in this incomplete picture of graduation 
rates, although nearly three out of five students attend more 
than one school, and nearly two out of five attend school part-
time, IPEDS outcome metrics only account for first-time, full-
time students.
    And, again, this means that transfer and part-time students 
are largely invisible in our higher education system. Although 
the Department of Education has been working to include more 
students in these metrics, it is simply not enough.
    Given our investment in higher education, and that is a 
very significant one and really is part of our discussion, I 
think, in the back of that discussion today, we have a vested 
interest in ensuring that colleges and universities are serving 
all their students well; and to do that, we need comprehensive 
information that accurately portrays today's students.
    Additionally, many students have signaled that the current 
system of data reporting duplicates efforts by the institution. 
Directly involving the Department of Education would decrease 
administrative burden placed on colleges.
    Students also need better data.
    When Isabella asks how long it usually takes students to 
gradate at her school of interest, there should be an answer 
for her. And when she specifically asks questions about the 
success of other students who took courses like hers, the 
response should not lead to political excuses.
    In fact, our committee is aware that providing better 
consumer information has been a partisan issue. Members have 
been pushing improvements to the postsecondary data 
infrastructure for years. Where there are concerns about the 
privacy of our students, and we certainly acknowledge those 
concerns, our committee can come together to have a solutions-
based conversation about the best way to secure this data. To 
dismiss this critical lack of data for privacy reasons seems 
shortsighted and one that we really need to look at.
    This type of data collection is what would allow us to 
uncover equity gaps in access, affordability, and completion 
for all students, and empower them to make better informed 
decisions about where to spend their time and their hard-earned 
money.
    That is why two of our members on our committee, 
Representative Paul Mitchell and Representative Jared Polis, 
introduced the College Transparency Act last week. This bill 
would repeal the student unit record ban currently in HEA and 
create a cohesive student unit record data system. I applaud my 
colleagues for taking this bold step forward.
    One thing we know for certain, our data infrastructure has 
not evolved with the changing student demographics, and it 
simply is not equipped to do so. We need to improve our 
postsecondary data infrastructure system to move the needle on 
access and affordability and completion.
    Thank you so much, Chairman.
    [The statement of Mrs. Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Ranking Member, Subcommittee 
             on Higher Education and Workforce Development

    Thank you, Chairman Guthrie. And thank you to the witnesses for 
being here. I look forward to hearing your testimony.
    The profile of our students attending college today looks much 
different than it did when the federal government first began 
collecting data on colleges and universities in the mid-1960s. Back 
then your typical student was a white 18-year old male going directly 
to college from high school in order to pursue intangible benefits. 
Today, our students are older, attending college part-time while 
balancing many priorities like childcare and work, and from more 
socioeconomically and racially diverse families than their peers of 
decades past.
    Many of them are first in their families to go to college and have
    attended more than one institution throughout their college 
education.
    And more and more, students are going to college to receive 
tangible benefits a decent chance of getting a job with a living wage 
and health benefits.
    But our current postsecondary data system doesn't reflect today's 
student. Our most comprehensive dataset, the federally mandated 
Integrated Postsecondary Education Data System, more commonly referred 
to as IPEDS, leaves many students unaccounted for.
    Some students, for example, are unable to attend college in the 
fall right after high school due to financial setbacks or inability to 
line up child care. And schools, particularly community colleges, allow 
for that flexibility. However, many of the enrollment figures in IPEDS 
only account for students who first enrolled in the fall and leave out 
students who may have enrolled in the spring.
    What's worse is the incomplete picture of graduation rates.
    Although nearly three out of five students attend more than one 
school
    and nearly two out of five attend school part-time, IPEDS outcome 
metrics only account for first-time, full-time students. This means 
that transfer and part-time students are largely invisible in our 
higher education system. And although the Department of Education has 
been working to include more students in these metrics, it is simply 
not enough.
    Given our significant investment in higher education, we have a 
vested interest in ensuring that colleges and universities are serving 
all their students well. But to do that, we need comprehensive 
information that accurately portrays today's students.
    Additionally, many schools have signaled that the current system of 
data reporting duplicates efforts by the institution. Directly 
involving the Department of Education would decrease administrative 
burden placed on colleges.
    Students also need better data. When Isabella asks how long it 
usually takes students to gradate at her school of interest, there 
should be an answer for her. And when she specifically asks questions 
about the success of other students who look like her, the response 
should not lead to political excuses.
    In fact, our Committee should remember that providing better 
consumer information has been a bipartisan issue. Members have been 
pushing improvements to the postsecondary data infrastructure for 
years.
    Where there are concerns about the privacy of our students, our 
Committee can come together to have a solutions-based conversation 
about the best way to secure this data. To dismiss this critical lack 
of data for privacy reasons would be short-sighted.
    This type of data collection is what would allow us to uncover
    equity gaps in access, affordability, and completion for all 
students, and
    empower them to make better informed decisions about where to spend 
their time and hard-earned money.
    That's why two of our Members on our Committee, Rep. Paul Mitchell 
and Rep. Jared Polis, introduced the College Transparency Act last 
week. This bill would repeal the student unit record ban currently in 
HEA and create a cohesive student unit record data system. I applaud my 
colleagues for taking a bold step forward.
    One thing is certain; our data infrastructure has not evolved with 
the changing student demographics and it is simply not equipped to do 
so. We need to improve our postsecondary data infrastructure system to 
move the needle on access, affordability, and completion.
    Thank you, Chairman. I yield back.
                                 ______
                                 
    Chairman Guthrie. Thank you. Pursuant to committee rule 
7(c), all members will be permitted to submit written 
statements to be included in the permanent hearing record.
    Without objection the hearing record will remain open for 
14 days to allow such statements and other extraneous material 
referenced during the hearing to be submitted for the official 
hearing record.
    I now turn to the introduction of our witnesses. Dr. Mark 
Schneider is the vice president and an institute fellow at the 
American Institutes for Research. Mr. Jason Delisle is a 
resident fellow at American Enterprise Institute. Ms. Mamie 
Voight is the vice president of policy research at the 
Institute for Higher Education Policy. And Mr. Andrew Benton is 
the president and chief executive officer of Pepperdine 
University.
    I will now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Let the record reflect that the witnesses answered in the 
affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You each have 5 minutes to 
present your testimony. When you begin the light in front of 
you will turn green, when 1 minute is left the light will turn 
yellow, when your time is expired the light will turn red. At 
that point I will ask you that you wrap up your remarks as best 
as you are able. Members will each have 5 minutes to ask 
questions after your testimony.
    So, Dr. Schneider, you are recognized for 5 minutes for 
your opening testimony.

   TESTIMONY OF DR. MARK SCHNEIDER, VICE PRESIDENT, AMERICAN 
                    INSTITUTES FOR RESEARCH

    Mr. Schneider. Thank you so much for the invitation to 
testify here before the subcommittee, considering how to use 
and improve Federal data to increase transparency in higher 
education.
    Currently students face a dearth of clear, comparable 
information on the cost and outcomes of different higher 
education programs and credentials. In my written testimony I 
focused on a few areas in which the Federal Government could 
improve the flow of data to consumers. Here, I just summarize a 
few parts of that argument.
    So, as everybody else did, I will begin with IPEDS, the 
Integrated Postsecondary Education Data System, which, as was 
noted, is the primary data source for higher education in the 
United States, requires institutions that participate in the 
Federal Student Aid Program, Title IV, to fill out a dozen 
surveys.
    The topics covered, the questions asked, these are all the 
mixing regulatory and consumer information, but they are all 
the result of a long process of legislation in which questions 
are added, surveys are demanded, and never removed.
    So, as a result that is an accretion of information, some 
of which is no longer necessary, some of it is not of interest 
any longer, but NCS has documented has documented the 
legislative mandate behind each and every one of those surveys, 
which means that they cannot be changed significantly. They 
cannot be ended without legislative action.
    So, there are two perennial suggestions that come up all 
the time: one is to simplify the Human Resources survey, which 
is the most burdensome and probably the most hated survey in 
IPEDS; and the second one is to transfer the Academic Library 
survey to a not-for-profit organization. These are evergreen, 
these are perennial. We dealt with this when I was at NCS. TRPs 
have dealt with this, but we require legislative action to do 
this.
    Here is another issue that I suggest in my written 
testimony that could actually increase the efficiency of IPEDS, 
and that is to have NCS--Congress should ask NCS to decide 
which measures are needed at the institution level, and which 
we could actually use sample surveys to estimate the numbers.
    But more importantly, I think, is we need to improve the 
transparency of student outcomes and graduation rate we have 
been talking about for a long time, but I am much more 
concerned right now with the issues of what happens to students 
after they graduate.
    So there is a growing recognition that the outcomes of the 
investment of time and money in higher education has to be 
measured better than IPEDS can currently do or the way it is 
structured to do. The most efficient way of doing this would be 
to merge different existing administrative data systems, 
especially wage data, to provide a fuller picture of how well 
colleges and universities are serving their students.
    This leads immediately to questions that Congress must 
decide upon. So, one is the extent of the coverage of these 
merged data systems. Is it sufficient to have a data system 
that concentrates on Title IV students, which is easily 
justified because of the extent of the Federal investment in 
Title IV student aid programs?
    FSA already has a very good database on aided students, and 
we have already merged those with IRS data to populate parts of 
the scorecard, so this has been done. The question is, is that 
sufficient? And that is a congressional decision about whether 
or not Title IV students alone are sufficient for national 
purposes, or do we need different mechanisms or different ways 
of covering the one-third of students that are not covered in 
Title IV?
    As we shift towards merging administrative data systems, 
action by Congress is fundamentally important to set the 
parameters and the guidelines for how those data will be merged 
and how they will be used.
    It is fundamental to remember that these administrative 
data systems were created for many different purposes and they 
are all governed by different laws. So at the current time when 
we start merging these data systems, it is an incredibly 
tedious process of negotiations, renegotiations, and 
negotiations yet again between many attorneys, many data 
owners, all of whom have different laws, different 
perspectives, and different cultures about sharing data and 
integrating. So we end up spending years, months, negotiating 
agreements because there is no unified framework for how these 
data systems can be merged and how they should be managed.
    The Commission on Evidence-Based Policymaking will report 
this summer a 2-year investigation, and I hope that provides 
some guidance to how the Congress needs to move forward in 
terms of making sure that we can merge these data and use them 
for the national interest.
    Thank you.
    [The statement of Mr. Schneider follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Chairman Guthrie. Thank you for your testimony. I now 
recognize Mr. Delisle for 5 minutes for your testimony.

     TESTIMONY OF JASON DELISLE, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Delisle. Thank you. Good morning, Chairman Guthrie, 
Ranking Member Davis, and distinguished members of the 
subcommittee. Thank you for giving me the opportunity to 
testify today about data on our Higher Education System.
    I have been asked to focus my testimony on data about the 
Federal Student Loan Program. And I should note that my 
comments today are my own, and do not necessarily reflect the 
views of the American Enterprise Institute.
    As you know, the Federal Government's Direct Loan Program 
dominates the student loan market today, issuing 90 percent of 
all loans made each year. So what started out in 1965 as a 
program for undergraduates from low-income families today makes 
loans to all undergraduates, parents of undergraduates, and 
even graduate students, regardless of their financial 
circumstances.
    The program even allows parents and graduate students to 
borrow effectively unlimited sums through the PLUS Loan 
Program. So now, around 1.3 trillion, this talk about standing 
loans under this entire program, rivals the Federal Housing 
Administration's largest mortgage program.
    Options to repay or not repay these loans have exploded in 
number and in generosity in recent years. These include plans 
with fixed or graduated payments spread over 10 to 30 years, 
and a variety of plans with payments set to borrowers' incomes, 
which I collectively refer to as income-based repayment, or 
IBR.
    Yet given the size and complexity of the program, the data 
that the Federal Government makes available about it to 
researchers or the public leaves much to be desired. 
Specifically the data often are not broken at the student level 
and, therefore, provide only high-level summary statistics.
    The data also generally reflect only snapshots in time and 
are not longitudinal, meaning information about what happens to 
loans and borrowers after the money is disbursed is simply not 
observable. The best available data sources that the Federal 
Government already compiles, those that are student-level and 
track borrowers over time, are not available to anyone outside 
the government, not even researchers who hold restricted use 
licenses from the National Center for Education Statistics.
    So, many key questions about the program cannot be answered 
by entities outside the government. I believe this creates 
policy blind spots, and I will provide two cases to illustrate.
    I think the Student Loan Program today is in something of a 
nonrepayment crisis. Over 8 million people are in default on 
their Federal student loans. That number has grown year after 
year, even though the country is now many years into an 
economic expansion with low rates of unemployment.
    Other estimates suggest that over 40 percent of borrowers 
whose loans have come due are in default, are delinquent, or 
are in forbearance or hardship deferment. Without better data 
about these borrowers after they leave school, it really is 
difficult to fully understand the situation or even to begin to 
develop solutions to the problem.
    My other example is the case of income-based repayment. 
When the Obama administration and Congress dramatically 
expanded this program starting in 2010, internal estimates 
suggested the added cost would be around $700 million a year. 
We are now learning that costs are substantially larger, 
running in the billions annually.
    It turns out the original estimates were based on 
indefensible assumptions that have only recently come to light, 
such as the Department of Education's assumption that graduate 
students with PLUS loans, meaning the students who borrow the 
most, would not use income history payment at all or that 
enrollment in the program would not grow.
    If entities outside the Federal Government had access to 
better data about this program, researchers might have 
uncovered these faulty assumptions before lawmakers expanded 
the IBR program. But, fortunately, a readymade solution could 
help improve the availability of data. There are two data 
sources of Federal agencies use to study the loan program that 
are not currently available outside the government.
    These include a sample file extracted from the Department 
of Education's National Student Loan Database System, NSLDS, a 
recordkeeping system that tracks the status of individual loans 
and borrowers. And another dataset developed by the Treasury 
Department that links NSLDS data to Internal Revenue Service 
tax records for a sample of borrowers, all the information is 
deidentified.
    So, while far from perfect, these datasets overcome many of 
the limitations of what is available to researchers otherwise. 
The Department of Education in cooperation with Treasury could 
make these datasets available in the same manner as other 
restricted-use datasets through the National Center for 
Education Statistics.
    This is where Congress could be helpful by making its 
interest known in such a project and ensuring that sufficient 
resources are provided to the agencies to make it happen. Far 
too much is at stake for lawmakers to be satisfied with the 
current state of affairs. Taxpayers and students deserve better 
than the policies that we have today that are often developed 
through anecdotes and assumptions for lack of available data. 
My recommendation provides one relatively simple way to address 
these blind spots in our student loan system.
    And that concludes my testimony today. I look forward to 
any of the questions that you may have.
    [The statement of Mr. Delisle follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Guthrie. Thank you for your testimony. And I 
recognize Ms. Voight for 5 minutes for her testimony.

 TESTIMONY OF MAMIE VOIGHT, VICE PRESIDENT OF POLICY RESEARCH, 
             INSTITUTE FOR HIGHER EDUCATION POLICY

    Ms. Voight. Thank you. Chairman Guthrie, Ranking Member 
Davis, and members of the subcommittee, thank you for the 
opportunity to testify today.
    My name is Mamie Voight, and I am vice president of policy 
research at the Institute for Higher Education Policy, or IHEP, 
a nonprofit, nonpartisan organization that promotes college 
access and success, especially for underserved students.
    I help lead the Postsecondary Data Collaborative, a broad 
collection of organizations representing institutions, States, 
students, employers, and privacy and security experts, 
committed to the use of high-quality data to improve student 
success and close equity gaps.
    Distinguished members, the research is clear: investing in 
a college education pays off. But while college is often a 
worthwhile investment, students and families, policymakers and 
institutions can't answer critical questions about which 
programs at which institutions provide an adequate return on 
this investment, and for which students.
    Before making other investments, like buying a home or a 
car, we shop around, we perform inspections, we lift the hood, 
and we kick the tires. In other words, we ask questions. The 
college marketplace should be no different, but we lack the 
high-quality information needed for the market to function. We 
cannot answer critical questions about colleges, like how many 
part-time and low-income students graduate? Do students 
transfer? How do students fair in the workforce?
    Students need these answers and so do policymakers, Federal 
and State, who are charged with enacting good policies and 
stewarding taxpayer dollars, and so do colleges which often 
cite data use as a driving factor in helping them better serve 
students, especially underrepresented students. But policy 
barriers prevent these stakeholders from accessing information 
even when the data already exists.
    Our data infrastructure consists of several databases and 
multiple players. It is duplicative efficient and cumbersome, 
and many students remain missing or invisible. We can and 
should do better. In recent years, institutions and States have 
recognized the insufficiency of Federal data, and created 
voluntary initiatives to collect better information, documented 
in my written testimony.
    These voluntary initiatives illuminate data gaps and prove 
it is possible to collect better data. But piecemeal voluntary 
reporting isn't enough. We need a more complete solution. And a 
better solution exists, a secure privacy-protected 
postsecondary student data system, like the one proposed in the 
Bipartisan College Transparency Act and Student Right to Know 
Before You Go Act, would integrate existing Federal, State, and 
institutional data sources into a more coherent, nimble, 
secure, and privacy-protected network. It would create better 
information that counts all students while reducing reporting 
burden on institutions.
    More than 70 organizations representing students, 
institutions, veterans, college access providers, and employers 
have endorsed the College Transparency Act; recognizing that 
this system would create a more functional postsecondary 
marketplace. The Federal Government is uniquely positioned to 
compile better postsecondary information, even if non-Federal 
entities disseminate it.
    For example, consider how valuable your weather app is. 
Privately developed weather apps are primarily made possible by 
data from the National Weather Service. Just as the Federal 
Government is uniquely positioned to compile weather data 
because it has access to things like satellites, it also is the 
best option for compiling data on education and the workforce 
given the information it already holds. It is the only entity 
with comprehensive information on employment outcomes. In fact, 
the Departments of Treasury and Education have already linked 
education and workforce data to answer questions about students 
who receive Federal financial aid. But those answers will 
remain incomplete without a system that includes nonaided 
students, too.
    Student protection must be at the heart of any data system. 
It must protect their privacy, preserve their right to 
information, and secure their data. The data network should be 
limited to answer only questions of national interest, about 
college access, completion, cost, outcomes, and equity; and 
data should be secured using industry-leading protocols. Strong 
data governance should design the system to use data in 
compliance with the law, notify students, prohibit the sale of 
data or use of data for law enforcement, and issue penalties 
for misuse. We can protect student privacy while providing 
students with the information they deserve. It is not an 
either/or choice.
    Members, as you steward over 160 billion in taxpayer 
dollars to help students access and succeed in college, please 
consider the questions you cannot answer. A more coherent 
student-level data system would address substantial 
shortcomings, and before students decide where to invest their 
resources they deserve answers to these same questions. Thank 
you.
    [The statement of Ms. Voight follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Guthrie. Thank you for your testimony. And I will 
now recognize Mr. Benton for 5 minutes for testimony.

 TESTIMONY OF ANDREW K. BENTON, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, PEPPERDINE UNIVERSITY

    Mr. Benton. Good morning, Chairman Guthrie, Ranking Member 
Davis, members of the committee. I am privileged to serve on 
this panel.
    I am Andrew Benton, and I have the privilege of serving as 
the president of Pepperdine University located in Malibu, 
California.
    Succinctly stated, data analysis is important both in 
informing consumer decisions and in ensuring institutional 
accountability. The questions then become what information is 
to be collected? How much is to be collected? And for whom and 
for what purpose is it being collected? In this age of college 
pricing concerns, I must also express concerns about the cost 
burden of data collection.
    I want to use my time well, so I offer these limited points 
for your consideration. First, we live in a data-rich era, and 
calls for higher education data come from all quarters, 
especially from government. However, this data should be 
maintained, first and foremost, at the institutional level if 
our response to these requests is to be effective and 
respectful of student privacy.
    Second, we strongly value and support tools including data 
that prospective students and their families can use to find a 
right-fit institution which will enable and encourage their 
success. In fact, Pepperdine, along with 600 other colleges and 
universities, participates in the University and College 
Accountability Network, UCAN, which includes over 50 data 
elements that we believe are important to student success. It 
is not required of us; we do this because we care about our 
students. And by the way, this costs the Federal Government 
nothing.
    Third, universities like Pepperdine are accountable to 
regional and national accrediting agencies, to their home 
State, in our case California, and to the Federal Government. 
We take our responsibility to demonstrate transparently the 
quality of our educational programs and, importantly, our 
responsible stewardship of Federal funds. We provide all the 
data necessary to meet our responsibilities, and we do so in 
great detail.
    Fourth, in these various efforts it is important to 
remember that students are more than data points, and they come 
to our institutions with expectations of privacy, and we need 
to honor that. It is, in effect, a promise that we have made to 
them.
    It is for this reason that I specifically commend, and 
gratefully, Chairwoman Foxx for her work to protect student 
privacy by authoring language in the Higher Education Act that 
prohibits the establishment of a Federal student unit record 
data system.
    For over 40 years the Federal privacy laws have allowed 
schools to release student-specific confidential data only with 
the written approval of the student. The ban on the 
establishment of a Federal student unit record data system 
maintains these important protections. This ban is particularly 
important for students who do not receive any Federal aid, but 
would be included in the new comprehensive data system 
nevertheless.
    I want to say just a word, as I head toward my close, about 
privacy. The notions of privacy and security are often 
conflated. Certainly, they are related, but they are not the 
same things. In short, the privacy issue associated with the 
student unit record data system is that personal information 
about a student would be entered in a database without the 
student's expressed consent. Standing alone, that is a 
violation of privacy.
    A security issue with such a system would include the 
unauthorized access to or use of the personal information, 
whether or not an individual had consented to having his or her 
information added to the system in the first place.
    Finally, the potential existence of a massive Federal 
registry, including presently about 20 million students, 
increasing by 3 million each year, will be very tempting for 
other governmental agencies and the private sector to mine, to 
the potential detriment of our students and alumni.
    For these reasons the focus needs to be at the individual 
institutional level, supporting the institution's fiduciary 
sense of responsibility for seeing that students acquire the 
knowledge and skills necessary to enjoy a rich, intellectual 
life, also enabling them to provide for themselves and for 
their families. It is the responsibility that we take very 
seriously at Pepperdine University, and our commitment is 
shared by many.
    I thank you for your time to explore these important issues 
and for giving me the opportunity to appear before you.
    [The statement of Mr. Benton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Chairman Guthrie. Thank you for your testimony. Ms. Voight 
had a very proper analogy using the weather, and then we go to 
someone from Malibu next; it kind of works there.
    I would like to recognize the chairwoman for the full 
committee, Ms. Foxx, 5 minutes for questions. Dr. Foxx, I 
apologize.
    Mrs. Foxx. That is okay. Thank you very much, Chairman 
Guthrie. This has been a very enlightening set of presentations 
and I want to thank the panel members very much for being here. 
This is an important issue. Getting information to make good 
decisions at the policy level is critical to us, and I have 
always believed that.
    I noticed that, again, most of you used the term ``data.'' 
We had a hearing here a couple of years ago where we had stacks 
of reports and one person on the panel said, do you know what, 
we are drowning in data and we don't have much information.
    And I think that is probably true based on what most of you 
have said today, is that we have a lot of data, but that data 
is not informing us well to make decisions.
    And I appreciated very much Dr. Schneider mentioning this 
Commission on Evidenced-Based Policymaking, which is going to 
bring forth its report later this year, and I am certainly 
looking forward to that.
    Unfortunately, the Federal Government has a pretty lousy 
record of keeping information private, and we had a hearing in 
the OGR Committee a couple of weeks ago, with IRS 
representatives and the Federal Student Aid Office, indicating 
what a lousy job the Federal Government does of keeping 
information private.
    Dr. Schneider, do you have another comment you could make 
on how we can protect actual privacy, not relying on the 
security mechanisms that we currently have? Do you have an 
expanded point you would like to make on that?
    Mr. Schneider. So, I actually think that the issue is more 
complicated than just the protection of the data because 
clearly any large data system is going to be subject to risk, 
right. And we should, in fact, do everything we can to protect 
those data. And Senator Wyden has just proposed a new bill for 
protecting privacy using, you know, heavy encryption. The real 
question, and the one, again, that I believe Congress has to 
weigh in on, is what is the balance between the risk of that 
data system and the rewards and the benefits of it?
    And that, to me, is again a fundamental issue for the 
Congress to decide about where we come down in the risk-reward 
ratio, because clearly there are risks to assembling these 
data, there are also benefits to having these data, we have 
heard some of them, and it is only Congress that has to decide 
where the inflexion point is with the risk and benefits of 
having those data.
    Mrs. Foxx. And I want to thank you very much for pointing 
out how we have gotten to the place that we have gotten, where 
I think we have a lot of wanted data without necessarily the 
needed data.
    Mr. Benton, thank you for your comments about the student 
unit record ban. I do feel very keenly about keeping privacy. 
Would you like to talk a little bit more about why you believe 
this is important to your students, and perhaps a little bit 
more about what you are doing with UCAN at Pepperdine and the 
other institutions that are a part of that effort?
    Mr. Benton. Thank you. First, a word about UCAN, formed 
about a decade ago by the National Association of Independent 
Colleges and Universities. It was in direct response to 
congressional concerns about getting the right level of 
information to students. And so UCAN, with its 50 different 
points of information, was created and about 600 of us have 
loaded it onto our websites.
    So if you want to look up Pepperdine some time, just 
Pepperdine-U-C-A-N, Pepperdine UCAN, and you can see about the 
graduation rates and indebtedness upon graduation, the majors 
that we offer, and the various programs that are ours. We think 
of it as being just right.
    I think there are some scorecards, maybe they are a little 
bit short on information, but then we think this one provides 
50 points of information for parents and students. And today I 
think students and their parents are pretty deep into the 
research as to which college or university should be theirs 
maybe as early as the summer before their senior year, because 
they are going to be applying by November. It is very important 
they have good and accurate information.
    On my concern about privacy, just I will say this. It is a 
promise that we have made to our students. It is a promise that 
we have made to them in 1974, and it provides a candid 
relationship between the students and their alma mater. And for 
me, it is actually an ethical, even moral issue that the 
information they give to us is left in their academic files, 
and we are happy to share it in an aggregated basis, but to be 
asked to turn that over to the Federal Government causes me 
great concern.
    Mrs. Foxx. Thank you very much. Thank you, Mr. Chairman. I 
yield back.
    Chairman Guthrie. The chairwoman yields back. The ranking 
member of the full committee, Mr. Scott, is recognized for 5 
minutes for questions.
    Mr. Scott. Thank you, Mr. Chairman. The challenge, of 
course, is to get as much information and still maintain the 
privacy. And let me ask Ms. Voight a question. How many 
different programs are we talking about and are they 
compatible? And what does the pending legislation do in terms 
of getting one set of data that people can use and rely on?
    Ms. Voight. Right now our existing data infrastructure is 
incredibly complicated. It is duplicative; institutions have to 
report information to multiple different entities, to States, 
to regional initiatives, in some cases to voluntary initiatives 
like UCAN, to the Federal Government, and to multiple places 
within the Federal Government. They have to report data to 
IPEDS and NCES. They have to report data to FSA and to the data 
systems that Jason was talking about.
    So, institutions are reporting data to many different 
places, and that is highly burdensome on them. An improved 
system that would streamline that collection would help to 
alleviate the burden on those institutions, so that instead of 
focusing those efforts on reporting data for compliance 
purposes, they could, instead, use that data and focus their 
energies on educating students and using the information to 
help students succeed, and to help close equity gaps. And so a 
streamlined system would help us to get there.
    Mr. Scott. What does the bill do?
    Ms. Voight. The bill creates that type of system, so it 
would overturn the ban on a student unit record system and 
create a student-level collection.
    Mr. Scott. We had a comment that nobody periodically 
reviews the questions. Would somebody review the questions and 
the data that would have to be collected?
    Ms. Voight. That would be an important part of the 
governance policy, yes, to make sure that there were regular 
reviews of the data that were collected to make sure that data 
are minimized. That is a key principle of data privacy, to 
minimize the data that are collected, to only collect the 
information that is absolutely necessary to answer questions of 
national importance. So that would need to be reviewed 
regularly.
    Mr. Scott. Is data collected after college, and how would 
that be collected?
    Ms. Voight. So, the way that would work in the bill is that 
the education data that institutions would report would be 
linked to existing data that the Federal Government already 
holds. The Department of Treasury has information on wages and 
earnings through IRS records, and those could be linked to 
education records through this bill.
    Mr. Scott. Obviously that suggests some privacy concerns if 
you are connecting all that data. What does the bill do to 
guarantee privacy of that information?
    Ms. Voight. The bill has a number of privacy provisions in 
it. For one, data are prohibited from being sold, ever. They 
cannot be sold. They cannot be used for law enforcement 
purposes. There are strict penalties for misuse of the data, 
and those should remain in place. There are disclosure 
limitations, so the data that we are talking about now at the 
student level would never be disclosed to the public. Aggregate 
data would be.
    So, in fact, the earnings information would be kept so 
privately that it would never even go back to the Department of 
Education; it would never go back to NCES. The Department of 
Education would send student records to Treasury, which would 
then aggregate results and send those aggregated results back 
to the Department of Education. So it really does take privacy 
and security very seriously.
    Mr. Scott. Who could get the data?
    Ms. Voight. The aggregate results would be intended to be 
available to the public, to inform students and families, 
policymakers and institutions, but student-level data would be 
highly restricted and only the people who absolutely would need 
access to it to do those matches and run those calculations 
would have access.
    Mr. Scott. Would you be able to get to the--I mean, you are 
talking about reports, then how would the information be 
published?
    Ms. Voight. It could be published in a number of different 
ways. And I think that one thing that's important is that the 
data be made available in ways that private industry can use 
the aggregate results, not the student-level data, but the 
aggregate results. Just like in the weather app example, we can 
have private industry pull in the aggregate institution-level 
or program-level data, and find ways to make it most appealing 
and usable to consumers, to students, and families. So that 
would be incredibly important.
    You could also think about the types of things that this 
body has proposed around the college dashboard, and presenting 
some of the most important information to consumers in that 
type of dashboard format.
    Mr. Scott. Would this information be available on a 
college-level basis, so that you would be able to look at a 
particular college to determine how the Pell-eligible students 
are doing, and how certain minority groups and how everybody 
else is fairing?
    Ms. Voight. Exactly. We would have institution-level data 
and program-level data in some cases. We know that is 
incredibly important for workforce outcomes, because student 
earnings depend not just on which institution they go to, but 
very much what they study, what they major in, so that program-
level data would be very important as well.
    Chairman Guthrie. Thank you. The gentleman yields back. And 
I recognize myself, 5 minutes for questions.
    First, President Benton, in your testimony you outlined a 
balancing act between data transparency and privacy. Dr. 
Schneider has testified about the need to access more data to 
better understand the taxpayers' return on investment, and I 
know you have talked about it in your testimony.
    But, again, what are your thoughts on availability of data 
in your opinion? Who should lead the research that demonstrates 
success? Is that government, States, or institutions?
    Mr. Benton. I know that at our university we have a very 
robust Office of Institutional Effectiveness, and we yield this 
information on a regular basis, so that we can make parents 
knowledgeable about the considerable investment they are about 
to make and so that students can think about the benefits of 
being a business major or comparative literature major, just 
two examples.
    And we are happy to share that, but we share it on an 
aggregate basis to respect privacy. We share that with the 
State, and, if asked, we share that with the Federal 
Government. And so we have no objection to that and we think 
that is a part of this age of consumers in which we need to 
provide information like that.
    Chairman Guthrie. Thank you. Dr. Schneider, you mentioned 
in your testimony that one of the reasons the earnings 
information available for the college scoreboard does not 
adequately measure variation in earnings outcomes is because it 
is aggregated at the institution level rather than the program 
level. Why do you believe it is so important to provide this 
information on a programmatic level? And is it possible to 
report this information for federally aided students without 
creating a new Federal Unit Record System?
    Mr. Schneider. So, first of all, the variation in student 
wages varies much more by what someone studies and where they 
study it. So, there are a handful of institutions, most of them 
private, that are, you know, you go there and it doesn't matter 
what you major in. You have the secret handshake, you know, the 
ring, and the social capital and the networks, and you do fine.
    But if you are attending a regional campus where most 
students go, if you major in many areas, you are going to be at 
the bottom of the income distribution, and 10 years later you 
are still going to be at the bottom of the income distribution. 
We need to understand the outcomes at the program level, 
because that is what is driving so much of the wage outcomes 
that students will likely experience. So at that level it is 
fundamentally important.
    The question then becomes, and I think, again, this is an 
issue for the Congress to decide, what is the responsibility of 
States, for example, versus the Federal Government? So, I work 
with many States. They have information on all the students 
mostly in public institutions, but the State of Minnesota, 
Virginia, have data not-for-profit, some even have data for-
profits on the outcomes of those data.
    So, right now, States like Texas report incredibly detailed 
information about the wage outcomes of all the public students 
attending public institutions, graduating from public 
institutions, and that is the State doing that. So, there is 
incredibly valuable information. I have worked with seven 
States liberating this information about outcomes at the 
program level.
    So we have proven without doubt that the program-level 
information is fundamentally important. The question, again as 
I posed earlier, was whether or not the Federal Government has 
a sufficiently compelling interest in the remaining one-third 
of the students to create a database that encompasses them as 
compared to FSA students.
    Chairman Guthrie. Okay. Thank you. And Mr. Delisle, I am 
very concerned to hear from your testimony that nearly one in 
four Federal student loans issued to undergraduates this year 
is eventually expected to default. Do we have any sense from 
the currently available information about the most likely 
indicators of default or that could help us craft policies to 
guard against defaults? And what additional information would 
be most useful to have on defaulters?
    Mr. Delisle. Yes. We have in some information that the 
agencies, the Department of Education decides to put out that 
we can use to look at predictors of default, they are just sort 
of not necessarily predictors, it is just sort of big, 
categorical averages. So we know lifetime expected default rate 
for students by type of institution, but, again, it is not 
information that is updated very regularly.
    So, really the issue is that the types of data and the 
statistics that the agencies are using to develop those kinds 
of reports, or summary statistics, I think should be made 
available so that researchers are able to update them and 
scrutinize them on a more regular basis.
    Chairman Guthrie. Thank you. That concludes my questions. 
And I will recognize the ranking member of the subcommittee, 
Ms. Davis, 5 minutes for questions.
    Ms. Davis. Thank you very much, Mr. Chairman. I wanted to 
turn to Ms. Voight. And I know that there are concerns about 
the student unit record data system, and I wonder if you could 
address the question of whether or not the Federal Government 
should have an interest in collecting data on students beyond 
those who receive Federal financial aid.
    Ms. Voight. Yes. The Federal Government has a clear role to 
play here. The Federal Government is a huge investor in our 
higher education system investing over $160 billion in the 
system. And we need that information not only on aided 
students, but also on nonaided students for a number of 
reasons.
    For one, the data that will be made available to the public 
will be institution-level data or program-level data, like we 
have discussed. In order to have those data accurately reflect 
institutions, they need to include all students at the 
institution. About 30 percent of students don't receive Title 
IV financial aid, and so if they are omitted from the aggregate 
calculations, then the institution-level data that will be out 
there will be misrepresenting the actual outcomes at the 
institution.
    We also really need information on Title IV and non-Title 
IV students if we are to address equity concerns and use these 
data to really address the equity imperative. Just like under 
ESSA we need information on economically disadvantaged and 
noneconomically disadvantaged students. We also need 
information in higher ed on aided students and nonaided 
students so that we can address equity concerns. And really, 
fundamentally underlying all of this is that all students 
deserve access to good information to inform their choices, 
regardless of whether they get aid or they don't.
    Ms. Davis. Thank you. I know we are familiar with this 
aggregating data, and that certainly was an important move a 
number of years ago, and still in ESSA, but at the higher 
education level there is a focus on reporting graduation rates, 
but we don't disaggregate that data in terms of part-time, 
full-time, disadvantaged students from different geographic 
areas, et cetera.
    Why don't we do that? I mean, you had mentioned that we 
really don't get enough information out of the system as it 
exists today. So how important really is that?
    Ms. Voight. It is very important. Right now our IPEDS 
graduation rates only reflect first-time and full-time 
students. That is less than half of students attending college 
today. In order to answer questions about who is graduating and 
give accurate information to students, we need better 
information on part-time students, on transfer students, and we 
need to disaggregate by income status, like you mentioned. So, 
using Pell, often is used as adisaggregate to understand those 
equity implications.
    So, we very much need that information.
    The reason that it is hard to get through our current 
infrastructure comes back to that burden question about 
institutions. Every institution has to write code on their 
individual campus and calculate all of the different metrics 
that are requested in IPEDS. In a simplified system, a student-
level system, the institutions, instead, would report that 
student-level data and the NCES could run those calculations.
    Write one code across all institutions, it would build some 
efficiencies into the system. So that is a key benefit of 
creating this type of system. And the other thing to keep in 
mind when thinking about the first-time, full-time graduation 
rates, which we often complain about and hear complaints about 
because they are not representative of students, to get back to 
your earlier question about why we need data on Title IV and 
non-Title IV students, is the exact analogy there.
    Several years from now we will be complaining that our 
earnings outcomes are only reflective of a portion of our 
student body, just like now we complain that our graduation 
rates are only representative of a portion of our student body. 
In order to provide accurate information we need to count all 
students and all outcomes.
    Ms. Davis. Yes. And part of it gets back to that whole 
issue of, you know, we have tons of data and not enough 
information. But thinking about our families, really, that are 
asking questions about what is best for their son or daughter, 
how does that make a difference?
    I think that, you know, you are talking about some of the 
benefits of doing that largely to an institution as well as to 
individuals. But I am just thinking how we communicate that 
better in a way that is, you know, easily digested, actually. 
Whether it is online, wherever that is.
    Ms. Voight. Absolutely. Students care about outcomes. The 
vast majority of students, over 80 percent, say that they want 
to go to college to get a better job and to set themselves up 
for success after college. So they want that information about 
how college is going to help them achieve their life goals.
    So the information needs to be provided in digestible 
formats, in dashboard-type tools to help communicate it to 
students in usable ways. And it also can be made available to a 
variety of different stakeholders to use it to help communicate 
to college access providers, to counselors and to teachers, and 
families to help do that communication with students.
    Ms. Davis. Thank you.
    Chairman Guthrie. Thank you. The ranking member yields 
back. And I recognize Mr. Thompson for 5 minutes for questions.
    Mr. Thompson. Thank you, Chairman. Thank you for this 
important hearing, and thanks to the panel for being here.
    Chairman, I want to take a personal privilege, I am joined 
in the audience by Brittany Burlingham, a constituent from 
Union City, Erie County; an outstanding young woman who is a 
social worker major at the Edinburgh University, and a case 
aide for the Bair Foundation; and she is here with the 
Congressional Foster Youth Shadow Program today. So, I really 
appreciate you, Brittany, joining me here.
    Mr. Scott. Will the gentleman yield?
    Mr. Thompson. Absolutely.
    Mr. Scott. Since you introduced your foster care, I would 
like to introduce mine. Christopher Mundy from Los Angeles is 
with us today. I appreciate it.
    Mr. Thompson. Excellent, excellent. Well, I know, with the 
ranking member, we are just real proud to be participating in 
that program today with these outstanding individuals. You 
know, my background was health care and when I worked health 
care, you know, we had to provide informed consent when people 
would come to us. And believe it or not, part of that is by law 
we are supposed to reveal what procedures cost. People are 
shocked to hear that actually is the law today.
    And so my question, and I do appreciate this hearing, I 
think good transparent data helps point prospective students to 
preferred institutions according to their needs and whether it 
is the knowledge they are looking for, the eventual--hopefully, 
the outcome of a great career, certainly at an affordable rate 
that works for them. And our efforts at getting this data right 
will help those who choose to use it.
    I want to kind of separate away from the data just with my 
first question. You know, two of the most important 
relationships is this interaction between the prospective 
student and the institution of higher education, of learning.
    And so my question is, what do we require, or should we 
require, institutions of higher education to disclose regarding 
their performance?
    You put things like direct and indirect cost, graduate 
rate, average income earnings of graduates to prospective 
students, when they interact with those prospective students, 
whether it is a visit, whether it is a phone call, whatever 
contact. Do we require or should we require institutions to 
provide disclosure in those most important interactions? Dr. 
Schneider?
    Mr. Schneider. So we know that there are at least 40 
disclosures that are required of schools at the current time. 
We also know that schools are very spotty on the extent to 
which they comply with those disclosure requirements. So, for 
example, Pell graduation rates have been a disclosure, not a 
reporting, but a disclosure requirement for a long time, and 
only about a third or a quarter of the schools have actually 
disclosed that required information.
    So, in my written testimony I talk about, you know, trying 
to straighten out the disclosure requirements, and try to 
figure out which ones are really required--I am sorry, which 
ones the Congress wants to be disclosed and how better to do 
that.
    I remember taking my daughters to visit colleges. It was 
always about, like, great food clubs and swimming pools and 
lazy rivers, and it was never about anything about the cost or 
the likely outcomes.
    I think part of what we are talking about is the 
distribution of responsibility to get that kind of information 
into the hands of consumers. Right? So, I work with Money 
magazine, which has a very well-regarded college ranking 
system, and when they asked me, well, should we weight cost 
versus this, versus this, versus this more heavily? I said, 
that is an editorial decision, not my decision. That is for the 
editors to decide. And you brand it as a Money magazine ranking 
system, not as a Federal ranking system, not as any other kind 
of official ranking system.
    If a consumer wants to buy your ranking system, buy your 
magazine, fine. And that is driven by editorial decisions. So, 
I think one of the--and Mamie was making this point earlier, 
one of the things that we need to keep in mind, is the Federal 
Government collecting data, and again there are many decisions 
about the data, and then the dissemination of the data.
    So, I believe that having good data and then having many 
people access that data, all privacy protected, all aggregated, 
and then developing different ways of accessing that data and 
communicating it to students is fundamental, but for the 
Federal Government to collect data, I mean, we work for years 
on the College Navigator, and like I look at it now and I say, 
well, god, that may have been good, you know, 15 years ago; it 
is long in the tooth and needs to be updated, and God knows if 
we will ever get around to doing that.
    So, we need to make the distinction between the 
dissemination of this information as well as compared to the 
collection of the data. And maybe the Federal Government has 
unique capacities for collecting information, but it certainly 
has not proven itself to be very good at disseminating.
    Mr. Thompson. Thank you. Thank you, Chair.
    Chairman Guthrie. The gentleman yields back. Mr. Courtney 
is recognized for 5 minutes for questions.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you for 
hosting this hearing; and to the witnesses for a really 
thoughtful discussion.
    I would like to, again, just sort of make a comment that a 
lot of the testimony has been framed in terms of the benefit to 
the students and to the families, but I do think Mr. Delisle 
made an important point that the data gaps is creating blind 
spots in terms of public policy.
    And yesterday we had an absolutely perfect example of that. 
The Trump administration came out with their budget proposal 
which makes a pretty radical change to the Stafford Student 
Loan Program by eliminating the subsidized loan program. It is 
about a $39 billion hit on students who have to pay in-school 
interest under this proposal.
    In the back of the budget explanation, the budget director, 
and I give him at least credit for his honesty, states very 
clearly that while the in-school interest subsidy has not been 
rigorously evaluated, lessons from behavioral economics 
indicate that the subsidy is less likely to increase 
postsecondary enrollment.
    That is not data-driven analysis, that is guesswork. That 
is basically saying we are going to shift $39 billion of cost 
to students while they are in school, and again, with 
absolutely no analysis that I think the Congress or the public 
or certainly the ones who are going to pay the price here can 
really have any confidence that a good decision is being made.
    The other proposal in the budget: to cancel out the Public 
Service Student Loan Forgiveness Program, something that was a 
part of this committee's work 10 years ago when we passed the 
College Cost Reduction Act. Again, just as that program was 
about to hit this year for the first 10-year cohort, that 
basically made career decisions and job decisions built around 
relying on that benefit, again, the administration, with the 
stroke of a pen, in its budget is wiping that out; again with 
no analysis that anyone I think can really possibly justify 
that kind of a change.
    So, again, the need to have data is important for students 
and families, particularly as they make choices about, you 
know, where they matriculate, but also obviously it is critical 
in terms of the role that the Federal Government has.
    And again, I would like to sort of go back to that point. 
And Ms. Voight, you talked about, again, the scope of the Title 
IV skin in the game, which is about $160 billion. But, in fact, 
the universe of benefits that the Federal Government provides 
extends beyond that in terms of the tax code, whether it is the 
529 tax-deferred savings accounts, whether it is the American 
Opportunity Tax Credit, whether it is the student loan interest 
deductions.
    So, maybe you could talk a little bit about the fact that, 
you know, we are really talking about virtually almost every 
student who goes to college. Certainly my kids benefited from 
the 529 program. Maybe you could shed some light on that.
    Ms. Voight. Absolutely. So, the Federal investment in 
higher education is very large in the student aid programs, 
but, as you said, that is not the only Federal investment. We 
have investments through the tax code, and we have investment 
in terms of research dollars that go to institutions of higher 
education.
    So, to properly steward all of the Federal investment we 
need information on all students attending institutions of 
higher education, not only those who are getting Title IV aid. 
Also the institution as a whole benefits from being a part of 
the Title IV Program. It is not only the students who are 
getting that aid, it is the institution as a whole that is able 
to operate because they have that funding.
    The tax example is a good one because the IRS does have 
information on students who attend institutions of higher 
education for purposes of claiming the tax credits and 
deduction. So that information very much is there, and the 
Federal Government is well-positioned to compile that 
information and report on outcomes.
    Mr. Courtney. Thank you. Well, again, I think for all the 
reasons that you stated, the Transparency Act and Know Before 
You Go, I mean, it is time for us to do this and move forward 
and, again, hopefully defer any kind of drastic budget 
decisions like the ones proposed yesterday until I think 
Congress has better, you know, sources of information before 
making that kind of drastic change.
    And with that, I yield back, Mr. Chairman.
    Chairman Guthrie. Thank you. The gentleman yields back. I 
recognize Mr. Allen for 5 minutes for questions.
    Mr. Allen. Thank you, Mr. Chairman. And thank you, panel, 
for being with us today. I come from the business community, so 
I am interested in the investment and return aspects of not 
only capital, but also education.
    In listening here today, I think if I were a university and 
I was just getting started out and I was trying to attract 
students, the first thing I would have is I would advertise 
that I give an efficient, low cost, you get an education at X-
dollar.
    When you get here, because most students really don't know 
what they want to do even when they get to college, I think I 
would test, I would say, we have a system where we can 
understand how you are wired and where your passion is, and we 
can kind of put you on that career track. And then the other 
thing is, this is what you can expect to earn when you get out.
    So, Mr. Schneider how--and then we have this privacy issue, 
so how do we accomplish--because education is very expensive 
and, you know, once you go through college, I don't know what 
the facts say about once you get through college, folks would 
then have to go back to college to learn a different career 
track, and then maybe a third term until they figure out, you 
know, maybe what they are set up for as far as a career. But 
how do we accomplish this in higher education?
    Mr. Schneider. Well, again, I think it comes down to the 
question of the responsibility of institutions, which I don't 
think actually have the capacity to generate the kinds of post-
graduation outcomes that are fundamental to the calculation of 
ROI or measuring success; States which have very good data 
systems and could get better with some help from Congress, for 
example, or the Federal Government.
    So, right now my partner States are doing an incredibly 
good job on exactly what you are talking about: measuring the 
return on investment at the program level for different 
students. We have learned many lessons that they are not 
incorporating into their messaging and into actually in 
performance budgeting systems, for example, about the 
importance of technical degrees, career and technical 
education, associate degrees.
    So, there is a whole radical change in the way in which 
colleges are thinking about their training programs, and there 
is an emphasis on skills rather than simply degrees.
    Mr. Allen. Right.
    Mr. Schneider. So, this is a fundamental message that the 
data that the States are collecting are enabling us to 
disseminate.
    Mr. Allen. Well, is this a recent paradigm shift? Or is 
this something we have been talking about for a long time as 
far as trying to understand, okay, you have got to prepare 
yourself for a career; this is what the investment looks like? 
And then once you have reached that investment, I mean, when do 
we start looking at this? Because, you know, we have got 1.3 
trillion in student loan debt out there today, and, as was 
mentioned, it is one out of four who may not be able to pay it 
back.
    Mr. Schneider. Right.
    Mr. Allen. So, I mean, is this recent or is it we have been 
talking about this for a long time?
    Mr. Schneider. Well, so I will take some credit for helping 
this thought process along. So, I think, you know, we started 
with an access agenda. This is all common, you know, in the 
higher ed research community. We started with an access agenda, 
and then we realized that access without success was not 
success. So then we had a completion agenda, and again, you 
know, success is not graduating without a good job; family-
sustaining wages is not sufficient.
    And it really has been driven by States and governors who 
look at their investment in higher education's human capital 
investment.
    Mr. Allen. Right.
    Mr. Schneider. And as soon as you start talking about 
education as human capital investment, the return on that 
investment becomes fundamentally important.
    Mr. Allen. Mister, is it Desile?
    Mr. Delisle. Delisle.
    Mr. Allen. Delisle. Okay. Yes, your comments on this?
    Mr. Delisle. Sure. I wanted to talk about the comment about 
the one-in-four default and how long. Has it always been like 
this? How long has it been going on? We don't really know, 
which is sort of the reason why we need to get some of the data 
on student loan performance out so that other people can look 
at it.
    The Department of Education, only a few years ago, began 
providing one statistic once a year, showing the lifetime 
expected default rate for undergraduate student loans-- and 
that is where the one-in-four number comes from. But I don't 
know if that was the case 20 years ago.
    Mr. Allen. Well, yeah. Well, it is discouraging to know 
that default rate is probably going to grow when I am in a 
situation in my district where everywhere I go we need good 
qualified people in the workplace. So there is a big disconnect 
here, and we really need to get to the bottom of it.
    And I am out of time and I yield back. Thank you.
    Chairman Guthrie. Thank you. The gentleman yields back. I 
recognize Mr. Polis for 5 minutes for questions.
    Mr. Polis. Well, I thank the chair for holding this very 
important hearing. Last week Mr. Mitchell and myself introduced 
the College Transparency Act, which would provide very 
important data about how our institutions of higher education 
are performing, which we should care about, of course, because 
it is our tax dollars that are going there. And where we go to 
college is one of the most important decisions we make.
    Mr. Mitchell and myself introduced the College Transparency 
Act because we both believe that we are making that decision 
students and families should have access to as much accurate 
information as possible. We wouldn't expect someone to buy a 
home without researching it, and higher education shouldn't be 
any different.
    At the same time, colleges and universities need better 
information about their own outcomes so they can improve. The 
College Transparency Act gives them the needed information 
about where they are performing well and where they can make 
improvements.
    Ms. Voight, you spoke about the disjointed and mismatched 
data systems we have now and the need for better data. The 
University of Colorado Boulder, which is located in my 
district, fully agrees, and what they said is, ``In general, 
student-level submission will reduce reporting burden, improve 
data usability to track students from entry in the 
postsecondary education through employment, and eventually 
provide families with outcome information. Modernizing the U.S. 
Department of Education Student Data System to accept and 
utilize student-level submissions is a significant 
improvement.''
    That is from the University of Colorado. Members in both 
chambers introduced bipartisan bills that either create an 
exception to the student unit record ban or remove it. The 
Student Right to Know Before You Go Act, which was introduced 
last Congress, received bipartisan support, including from 
Speaker Ryan.
    Can you share more about the barriers to creating a more 
efficient higher ed data system? Despite all this bipartisan 
support from Democrats and Republicans, why isn't it happening? 
And then can you address within that the privacy concerns that 
we address in the College Transparency Act, and if you have any 
suggestions for additional privacy concerns so we can, you 
know, completely make sure we address those?
    Ms. Voight. Absolutely. So, as you mentioned, there is 
bipartisan support for this idea of creating a student-level 
data collection. And we have seen broad support grow in the 
field, representing institutions and States, and workforce 
agencies and student groups, and the privacy and security 
community who recognize the value of this type of system.
    So, there has been quite a bit of evolution over the past 
nearly a decade since the ban on this type of system was put 
into place.
    We have seen that agreement grow, and I think it is under 
recognition that we really need this type of information. The 
primary barrier right now is that it remains illegal to create 
this type of system. There is a statute that is preventing it. 
So that is the primary barrier.
    The College Transparency Act has a number of provisions 
around protecting privacy. I think that it very much takes 
seriously the need to protect privacy and secure data while 
also recognizing the importance of providing information to key 
constituents.
    Mr. Polis. Thank you. You know, and Mr. Benton, you shared 
several concerns about student privacy in your testimony, and 
you may know that I am a strong privacy advocate. I have 
introduced a number of pieces of legislation to provide 
additional protections, including the Student Digital Privacy 
and Parental Rights Act, the Email Privacy Act, the Protecting 
Data at the Border Act.
    In your testimony you said calls for higher education data 
comes from all quarters, especially from the government. I 
disagree. Frankly, I don't think that the government is driving 
this conversation at all. It is actually organizations 
representing institutions of higher education, students, 
businesses, consumer groups, even donors, and privacy 
advocates. These are who I hear about in terms of supporting 
higher education data, not the government.
    Mr. Chair, I have a letter from 79 organizations supporting 
the College Transparency Act, and ask unanimous consent to 
insert it in the record.
    Chairman Guthrie. Without objection.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Polis. And this sort of shows the broad nongovernmental 
support for data from a very broad coalition and I encourage my 
colleagues to look at it. It includes the Association of Public 
and Land-Grant Universities and Community Colleges, U.S. 
Chamber of Commerce, veterans groups, so many other groups.
    And Mr. Benton, I wanted to see what your response would be 
to these universities, businesses, and students that kind of 
this demand is coming from and who support the College 
Transparency Act. In fact, some of these are privacy groups as 
well. Don't you think that these privacy groups are taking 
privacy concerns seriously? Or is there any particular change 
you think we need to make to the bill to better protect 
privacy?
    Mr. Benton. I just had a chance. Thank you, sir, I just had 
a chance to read the bill yesterday. I find it very well 
worded, easy to understand, and I probably would have 
suggestions, but I didn't come prepared for that.
    Mr. Polis. Thank you. No, and obviously, we encourage 
follow-up from the committee, so I will ask you in writing, 
have any suggestions about further strengthening the privacy 
positions of the bill. Certainly those of us who are in the 
forefront of the Student Data Privacy Movement, and privacy 
movement, I want to make sure that those concerns are 
addressed, and that the data can be used by many of the 
stakeholder organizations to actually improve the affordability 
and quality of the college education.
    I yield back the balance of my time.
    Chairman Guthrie. The gentleman yields back. I recognize 
Mr. Mitchell for 5 minutes for questions.
    Mr. Mitchell. Thank you, Mr. Chair. You started this 
hearing today talking about what we don't know, despite the 
fact that we do 12 separate surveys in IPEDS, spend a million 
hours gathering them. I ran an institution and for many years 
we did IPEDS. So I can best describe them as a circus with 
definitions that left a lot to be desired and the information 
that was provided to consumers limited, at best.
    And if we don't know, consumers can't know what the 
opportunity in education is, what their outcomes can be. They 
are the users. In all ways they also pay for it. They pay for 
it for tuition, they pay for it in time, and the taxpayers pay 
for it, $165 billion, and we don't know, never mind them. Only 
21 percent of the students are currently captured in the IPEDS, 
and somehow we have to sort of glean some useful information 
from that.
    One of the witnesses testified to say we are in a data rich 
era. Well, there may be a lot of data floating around, but the 
question is, is it relevant? Can they access it and can they 
understand it?
    A couple of questions I guess I want to pursue, maybe Mr. 
Schneider you could help me out with. In your opinion, what is 
the most key information that consumers' families need in order 
to start making an assessment of a college or university?
    Mr. Schneider. Well, so in my mind, ultimately they need to 
know what they get in return for the time and the money that 
they spend
    Mr. Mitchell. And that is assessed by what is the 
likelihood of graduating, to get a job, right?
    Mr. Schneider. And so it is, are you employed? So, 
ultimately, the goal of the university education and college 
education, there are multiple goals obviously, but we are in no 
position to measure what students have learned because that is 
a quagmire and we are not going there. But we can measure what 
they do earn, are they employed, what they are earning. And 
this is fundamentally important information. So, the question 
for me is twofold: how do we get that information? And then how 
do we disseminate it?
    Mr. Mitchell. And the fundamental question is not 
ultimately at the end, it is a percentage of people that start 
a postsecondary education and fail to complete anything, yet 
have a massive student loan or growing student loans.
    Mr. Schneider. Right. Correct.
    Mr. Mitchell. That they will have difficulty paying.
    Mr. Schneider. So, completion rates, actually the State of 
Texas, which I work with a lot, has information at the program 
level which is fundamentally important about debt at the 
program level, by the way.
    Mr. Mitchell. Yes.
    Mr. Schneider. Graduation rates, time to completion at the 
program level, because, again, there is incredible variation 
across programs in these fundamental inputs.
    Mr. Mitchell. Exactly the issue is one of programmatic 
distinctions. The graduation rate, the employment rate, the 
earnings of the student graduating from the architecture 
program, I leave the university out, versus the nursing program 
are dramatically different.
    Mr. Benton, can you share with me, for example, the 
graduation rates and the employment rates from--name two 
programs from institutions, rather than do that for you. Can 
you share the distinctions for me?
    Mr. Benton. The graduation rates for Pepperdine?
    Mr. Mitchell. Employment rates; no, for the program, not 
overall. So that is a problem with UCAN. I have got a chance to 
look at it, UCAN gives overall information, but their outcome 
rates from one program to another, we all know, are 
dramatically different. How is that information shared with 
students that are looking at Pepperdine or any other university 
that is participating in UCAN?
    Mr. Benton. I can only speak for mine. We maintain 
information on how many of our students are employed within 8 
months of graduation in a field related to the major or how 
many have gone on to graduate school. And that is a pretty high 
rate, that is about 85, 80 percent.
    Mr. Mitchell. Sure it is. Sure it is. But the question is, 
I chose to attend the college or Michigan State University for 
one reason: they could tell me what happened with their 
students when they graduated. The Political Science Department 
couldn't. They couldn't give me data, they couldn't give me 
outcomes information, and that was back in 1974. It wasn't 
quite a data-rich environment then.
    That is the question I pose to the institutions using UCAN 
is how does the student get information about the architectural 
program or the nursing program or the mechanical engineering 
program? Because they are making an investment not in just a 
particular university, but, in fact, in a program that they can 
hopefully start their career in. How do they get that 
information in the current system?
    Mr. Benton. For us, just ask.
    Mr. Mitchell. Why is it not put out publicly so that 
everyone can see it, including taxpayers?
    Mr. Benton. I am not sure that it isn't, but I am just 
saying we have that information. If you are an accounting 
major, we can tell you what is probably going to happen to you.
    Mr. Mitchell. Give me one second, Mr. Chair, I know I am on 
the time, one second, if you could be so kind. And one last 
comment which may not sit well, is that students seeking 
absolute privacy from the Federal Government have choices in 
institutions to attend. You can attend Hillsdale College, among 
others. They take no Federal and State money, and they do no 
reporting.
    If you want assurance against any involvement in terms of 
reporting your status in institution, you can make that choice. 
But otherwise, institutions do utilize those resources to 
offset the cost just to sustain their institution. And we need 
to share the information for return on investment to the 
taxpayers and the consumers that--
    Chairman Guthrie. And the time is up.
    Mr. Mitchell. Thank you, gentlemen. Thank you, Mr. Chair.
    Chairman Guthrie. I now recognize Ms. Blunt Rochester for 5 
minutes for questions.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. And I want to 
thank the panel as well. I want to also speak to my colleague, 
Mr. Mitchell. You made some very, very important points. This 
really is about making sure that taxpayers, consumers, the 
institutions, or business community, we as legislators can make 
informed decisions and choices. And so I really appreciate the 
panel. I want to thank Dr. Schneider for your comments about 
how we got here because that was very informative as well.
    And my questions are for Ms. Voight, kind of along the 
lines of how we got here. In your remarks you mentioned the 
system being duplicative, inefficient, and cumbersome. So, from 
your perspective, if you could talk a little bit as well about 
how we got here.
    Ms. Voight. We have been collecting information on higher 
education since the 1800s, and IPEDS is over 30 years old now. 
So, we developed these data systems at a different time when 
our higher education system looked different. And over time, as 
we have recognized different needs, new needs, and new things 
to measure, we have sort of added them in piecemeal and it has 
created this complexity of a system.
    But we have a lot of this data that exist at the 
institution level, the State level, or the Federal level that 
we are simply not using now. We have heard a lot about the 
difference between data and information today, and we are data 
rich, but we are information poor. We are not able to convert 
that data into information.
    And if I may follow up on the conversation about the 
earnings information in particular, because the Federal 
Government does have that information. When institutions are on 
the hook for providing it, they have no good way to get 
accurate information on workforce outcomes.
    So, if an institution is presenting that type of 
information they are doing it usually through surveys of 
students, which are inherently problematic and inaccurate. They 
are usually not fully representative of the outcomes of 
students, and so the quality of those results would be 
insufficient.
    Ms. Blunt Rochester. That actually gets into some of my 
other questions. You actually said in your testimony as well 
that there are critical questions about access and completion 
that our current data information infrastructure can't answer. 
Can you go into more depth about the specific questions that 
can't be answered as it relates to access, success, and 
completion?
    Ms. Voight. Absolutely. So, in terms of access we need to 
know who is going to college and where they are going, that is 
really an equity conversation. In terms of completion, we need 
better information on how part-time students are doing, how 
transfer students are doing, and whether students transfer from 
a 2-year to a 4-year institution in particular, because many 
students entering community colleges have those goals.
    We need better information on cost and student debts. So 
many of the things that Jason has discussed, we need better 
information to answer those questions and we need better 
information on workforce outcomes, how much students are 
earning, and whether they are able to repay those debts. And 
the Federal Government really is the best solution for 
compiling that information.
    Ms. Blunt Rochester. And lastly, what are some of the most 
important metrics that can influence policy and practice that 
the Federal Government is currently unable to collect from 
colleges and universities?
    Ms. Voight. The Federal Government really needs the 
underlying information in order to calculate some of these 
metrics. So, for example, to measure transfer, the Federal 
Government doesn't currently have the underlying student-level 
data to be able to measure transfer across institutions or 
across States.
    The same for workforce outcomes, we can only answer those 
questions right now through linkages for Title IV students, not 
for non-Title IV students. And we have talked some today, Mark 
in particular has talked about the work that States have been 
doing to provide this information.
    States have done a lot to start providing consumer 
information on workforce outcomes. So metrics like median 
earnings or the percent of students earning over a certain 
amount, which is very valuable information, but the State data 
are limited as well. The State data are bounded by State 
boundaries. So, if a student moves across State lines they are 
lost in terms of both measuring whether they have transferred 
and graduated, and whether they have gotten a job.
    State systems also are missing Federal employees, military 
employees, and the self-employed, whereas the Federal 
Government has that information.
    Ms. Blunt Rochester. Thank you. I yield back my time.
    Chairman Guthrie. Thank you for yielding. I now recognize 
Mr. Garrett for 5 minutes.
    Mr. Garrett. Thank you, Mr. Chairman. And Mr. Benton, I 
apologize because I have a finite amount of time. But I want to 
start with you and ask you if you have any idea the number of 
employees that Pepperdine, a fine institution, has on the 
payroll in order to ensure the ability to comply with 
regulations as it relates to data submission to the State and 
Federal entity.
    Mr. Benton. Insofar as financial aid?
    Mr. Garrett. Anything. How many people do you have whose 
job essentially is to send data to the State and Feds that is 
required of you?
    Mr. Benton. Ten to 15.
    Mr. Garrett. Okay. And I presume they are compensated well 
at a university like Pepperdine?
    Mr. Benton. Not as well as they would like, but, yes, sir.
    Mr. Garrett. Well, that is all, that is a universal theme. 
I will start briefly, Mr. Chair. And Mr. Benton, thank you. 
Anecdotally telling you a story about my father who was a real 
estate agent. When I went to college he asked what I wanted to 
major in and I told him history, and he said, oh, you are going 
to be a realtor, too.
    And I guess point is, and I ended up studying history and 
education because that was a pathway to a career, but the point 
is, I think that we all too often encourage young people to go 
out and find something they love and pursue it without regards 
to the return on investment.
    And I think that what we are talking about here today sort 
of dovetails with that. I would sort of echo some of the 
frustration expressed by my colleague, Mr. Mitchell, who has 
made a career in technical education, and acknowledging that 
there are two groups that we should be interested in here.
    Number one, the taxpayer; and number two, the student. The 
good news is that if we do right by one, we do right by the 
other.
    And so, I guess my frustration is Mr. Delisle talked about 
predictors of default and said it is sort of an ethereal thing, 
that we can't be sure. But to the extent that, and I believe at 
Pepperdine for sure, that if you are a history major, you can 
say percentage of history majors are employed within 12 months 
or in graduate school within 12 months, that is not the case 
everywhere, right.
    The number one driver of capital investment is the 
probability of return on investment, and we do a bad job of 
telling young people that what they are studying or not 
studying may or may not lead to a fruitful career.
    Well, there are no guarantees in life, but all this data is 
out there, and if it is being amalgamated and if it's being 
amalgamated for the satisfaction of the House Committee on 
Education and Workforce, then we miss the point.
    The questions about, not about data collection, about data 
dissemination: who gets it? And I want to tip my hat to a 
colleague, Mr. Polis, who is not in the room right now, but he 
spoke to his personal commitment over the years to privacy, and 
I will say that I admire his fight to that end.
    However, I want to differentiate between dissemination of 
your data, Dr. Schneider, and your data, everyone in the room, 
right? We have an interest in protecting the data of the 
individual. I think we have an interest in disseminating the 
data of the collective, so that the consumer can get that 
return on investment that they deserve or at least enter into 
the equation with all the information.
    We know, for example, that history majors from Cal State 
Fullerton might not have the same outcome as history majors 
from Pepperdine. And I don't say that to be pejorative to 
either institution, but the consumer should know that going in.
    So, Madam Chair, to the extent that we remove barriers to 
the collection of information, I guess this is an impassioned 
plea to ensure that information doesn't come just to us or the 
universities, or the States, but to the consumers of the 
product that is higher education.
    And I take this opportunity, I will conclude, to hit again 
on the fact that I think we can help our Nation and our young 
people greatly if we can break the paradigm that success is a 
4-year degree from a liberal arts university, in a corner lot 
in a subdivision, and encourage people to explore areas where 
we know those ROI and CTE fields where that might be 
appropriate to the individual.
    So I know I have sort of gotten off topic a little bit, but 
if we are here to do good and we are going to open the door to 
collection of more data, the way we do good is make sure the 
end users, the consumers, I am for looking north-south, I am 
getting some, get that data so that they can make informed 
decisions for themselves and their families.
    Thank you. I yield back.
    Mrs. Foxx. The gentleman yields back. Ms. Adams, you are 
recognized.
    Ms. Adams. Thank you, Madam Chair and Ranking Member Davis. 
And thank you for convening this hearing. And to those of you 
who testified, thank you very much for your comments.
    As the panel may know, North Carolina is one of the 37 
States that have a State longitudinal data system, and our 
State created this in order to enhance our ability to track 
student and institutional performance, as well as to produce 
accountability reports in a more efficient manner.
    Ms. Voight, I keep hearing from my colleagues on the other 
side that collecting student-level data is Federal overreach. 
But I think that if the Federal Government is investing 
billions of dollars on students and in the institutions that 
they attend, then the Federal Government is well positioned to 
compile the information.
    In your opinion, why should the Federal Government create a 
student-level data collection like the one that has been 
introduced by my colleagues? If you can respond to that, I 
would appreciate it.
    Ms. Voight. The Federal Government has a clear role to play 
given the Federal investment in higher education. In Title IV, 
you know, as we have discussed today, so I think that is a key 
point. But you bring up the important question about State 
longitudinal data systems as well, because as you mentioned, 
North Carolina has a strong one. And those systems have been 
really valuable in providing some information. But a lot of 
that information remains incomplete.
    The Federal Government has access to more complete 
information, particularly on workforce outcomes for students, 
information that is more complete than what States have. Some 
States have tried linking together their longitudinal data 
systems as well to try to deal with issues of students who 
cross State boundaries and try to get closer to what the 
Federal solution would do, but that is highly complex to link 
together all of those systems. In a pilot project they have 
linked together 4; getting to 50 would be a huge undertaking.
    So, the Federal Government can do this much more 
efficiently and much more effectively, and provide much more 
complete information than a State situation.
    Ms. Adams. Thank you, ma'am. And Mr. Benton, in your 
testimony you called for data to be held at the institutional 
level rather than combine in a manner that would allow students 
to be tracked across institutions. Yet we know that about 60 
percent of today's students attend more than one institution. 
Additionally, institutions on their own have very limited 
information, as has been said on their students' employment 
outcomes, and can only collect such information at great 
expense to the institution.
    I believe that students considering which institution to 
attend should have accurate information on graduation rates, 
including the results for students who transfer. So, do you 
agree, and how could institutions ever provide such information 
without sharing data?
    And if institutions hold on to their own data, as you 
propose, how would we be able to provide students comprehensive 
and reliable information on employment outcomes?
    Mr. Benton. Thank you for the question. We do maintain data 
on the success rates of those who transfer to us. We do not 
follow them if they leave us. We assume that the gaining 
institution will have that information. But we maintain 
impeccable records at Pepperdine University, and we submit 
those in an aggregated basis to anybody with a legitimate need 
to know.
    Ms. Adams. Okay. All right, thank you, sir. Madam Chair, I 
am going to yield back.
    Mrs. Foxx. Thank you, Ms. Adams. Mr. Grothman, you are 
recognized for 5 minutes.
    Mr. Grothman. Okay. We will go for Mr. Delisle. And I would 
like to thank you for having this hearing here today. I think 
one of the reasons why people feel so frustrated today compared 
to--in their ability to live the American dream compared to 30 
years ago.
    So many people have been led down the path to believe that 
a 4-year degree is worthwhile, so, it hurts them twice. First 
of all, they spend time not earning money when they should be 
earning money when they are young. Secondly, they wind up 
deeply in debt.
    In any event, a question for Mr. Delisle. A recent New York 
Times Editorial Board article titled, ``Student Debt's Grip on 
the Economy,'' the argument I have been making for the last 2-
1/2 years, that our current financing of higher education 
disincentivizes young couples from getting married, having 
children, and buying homes.
    And I can personally say I recently talked to a young 
couple back in my district, because of the income-based 
repayment schedule, they feel they couldn't afford to get 
married given the huge amount of debt. They are in their early 
30s. I don't know how they are ever going to be able to buy a 
house and have kids. It is just horrible.
    But in any event, The New York Times article raised another 
important question we should be talking about, and that is, in 
general, the value of 4-year college degrees and whether they 
are worth it. I am going to ask you. Did you happen to see The 
New York Times article?
    Mr. Delisle. I did, yeah.
    Mr. Grothman. Good. And do you agree with the premise that 
we are sending too many kids to 4-year colleges, in part kids 
who are underprepared for college, but also just kids who may 
be making more money with their brains and work ethic somewhere 
else?
    Mr. Delisle. Well, yes, I read the article, and I am always 
surprised to hear that student debt is harming the economy 
because that means higher education is harming the economy. 
Right?
    Mr. Grothman. Right, right.
    Mr. Delisle. And I don't necessarily subscribe to that 
view. And to the extent that the examples that people have 
given here about students dropping out and having lots of debt, 
you know, I can tell you that we don't know how common that is 
actually. Because of the data on how much debt students have 
when they drop out, is it common that they have a lot? Is it 
rare that they have a lot?
    There is really not good information on this. And the 
solutions that I have suggested, you know, aren't even 
necessarily consumer-facing. They are essentially the Federal 
Government making available data about its own programs so 
people can check the numbers.
    Mr. Grothman. I will ask you this question and, I don't 
know, you cannot know just from anecdotal evidence when you get 
out and about and talk to somebody. I mean, the number of 
people out there with huge student loans and a degree that does 
not lead to a job, you run into them all the time, like I said. 
A couple weekends ago, I ran into a couple, early 30s, one guy 
I don't think ever graduated, and he is sitting there with tens 
of thousands of dollars of debt. The gal graduated with I 
believe about 50 grand in debt, I think, and a degree that is 
nowhere near related to the job she currently has.
    But what percentage of people currently going to a 4-year 
university--or of all the people currently getting 4-year 
degrees, what percent do you think should be getting 4-year 
degrees in a traditional liberal college sort of setting? Do 
you think they should peel back by 20 percent, 30 percent? What 
do you think?
    Mr. Delisle. Yeah, I don't know what the right number is, 
but I will point out your comment about by just looking at 
anecdotes, I will restate my testimony from this morning, which 
is I think with a $1.3 trillion program, taxpayers deserve 
policies that are better than those made by anecdote.
    Mr. Grothman. Okay. I will give the rest of you a question 
since you presumably have an interest this. Percentage-wise, 
compared to the number of students we currently have trying to 
work their way to a 4-year degree, percentage-wise how many 
should be choosing that path?
    Any one of the three of you, do you want to take a stab at 
that? Yes, Dr. Schneider?
    Mr. Schneider. Well, I am not going to give you the exact 
percentage, but I will--
    Mr. Grothman. Take a stab at it.
    Mr. Schneider. Okay. Well, we know that only about 60 
percent of the students in 4-year schools graduate, and we know 
that not graduating has accumulated lots of debt and bad 
employment outcomes. But I think to flesh out your point, I 
would just give you not an anecdote, but a data point.
    In the State of Florida, the highest paid credential from 
all postsecondary institutions, 4-year, 2-year, district 
training centers, is elevator mechanic, $95,000 wage, 100 
percent placement rates.
    Mr. Grothman. Good.
    Mr. Schneider. Career and technical education is one of the 
things that we need to emphasize, and we need to get away from 
the 4-year bachelor's addiction, which I believe is part of 
your point.
    Mr. Grothman. Right. It would be nice if one of the 
panelists could at least take a stab at that. It is true, if 
you talk to technical colleges you will find out, people who go 
to technical college after they have a 4-year degree that 
didn't lead to a job.
    The same thing with trade schools, okay. People rather than 
beginning to go to the trade school at age 18 or 19 where they 
could be off and running and making a family-supporting wage at 
age 22 or 23, are going to the trade schools when they are 28 
or 29. They have got a big student debt, and they finally get 
around to earning family-supporting wages when they are 30 or 
31.
    Mrs. Foxx. Mr. Grothman, your time has expired.
    Mr. Grothman. Okay. Thank you much.
    Mrs. Foxx. Ms. Bonamici, you are recognized.
    Ms. Bonamici. Thank you very much, Madam Chair. And thank 
you for allowing me to join you on this subcommittee. I want to 
take just a moment of my time to introduce Gregorio, who is a 
student Portland Community College. He is with me today as a 
foster youth, shadowing me. He attends Portland Community 
College, hopes to go to Oregon State University, and he works 
as a mentor in our very effective Future Connect Program, which 
helps first-generation students. So it is an honor to have him 
with me today.
    This has been a great discussion I have really enjoyed 
listening to it, and it is pretty clear from the testimony 
today that we have some work to do. Our data systems are 
providing an incomplete picture, and we on both sides of the 
aisle understand that we can work together to address that.
    And speaking of anecdotes, which Dr. Schneider just 
mentioned, remember in the last presidential campaign one of 
the candidates, Senator Rubio, said welders make more money 
than philosophers, we need more welders and less philosophers? 
And as a journalism major would have said, fewer philosophers. 
But the point is that we actually need both, and we have had 
some strong bipartisan support in this Committee for Career and 
Technical Education.
    But anecdotally, it is a problem because, number one, 
philosophy majors do make more than welders; that was fact-
checked. Philosophy majors learn how to think, how to plan, how 
to communicate, and many of them have started businesses and 
are doing quite well. And, of course, liberal arts aren't for 
everyone, and sometimes graduates in this field do earn less 
than people in career and technical education, but that is not 
always the case. And we can't rely on anecdotes and simplistic 
data systems that don't adequately capture the real facts. And 
we really need to have this information available for students.
    I was speaking with Gregorio and another one of the foster 
shadows today about how they made their decisions about where 
to go to college. And I am curious about that because Dr. 
Schneider said his daughters didn't really look at the data, 
they looked at a lot of other things as well.
    Ms. Voight, in my home State of Oregon, we have been 
developing a longitudinal data system that can give families 
comprehensive information. The State is working across a higher 
education sector, and not just with public institutions, but 
also private colleges and universities.
    We have, of course, Reed College which years ago decided to 
opt out of participating in the rankings that actually helped 
them. They are getting a lot more well-qualified students 
applying.
    But Ms. Voight, what key insights have we gained from 
investing in data systems at the State level, and can they help 
influence policy? And when some individuals are proposing 
linking State data systems together, will that solve our gaps? 
And can you address that? And then I do want to try to get in 
another question as well.
    Ms. Voight. Sure. So we learned a lot from State data 
systems, and from the work that has been done in States to help 
to inform State policy decisions. And some States have tried to 
link those systems together as well, to answer questions about 
students who cross State lines. But there are challenges in 
doing that because it is highly complex to link together, 
especially if you were to think about linking together 50 
different State data systems.
    Ms. Bonamici. But do you think it would solve the problem 
if we could figure out how to do that? Or do we really need to 
do something at the Federal level?
    Ms. Voight. I think the Federal solution would be far 
better than linking together State systems.
    Ms. Bonamici. Thank you. Mr. Delisle, I wanted to follow up 
on your comment about income-driven repayment plans because 
this is something that I have been working on, the bipartisan 
legislation to help get more students into income-driven 
repayment. And you cited the GAO study that calculated higher 
than expected cost. I am very familiar with that report. GAO 
points out the difference between the loan principal that is 
forgiven through IDR and the actual cost of those plans, 
recognizing that borrowers with forgiven debt pay interest.
    But the primary takeaway was that the model for estimating 
the cost is inadequate. So, I agree that we need better data, 
but, as you note, it seems inappropriate to base any hasty 
changes to IBR plans based on estimates that suffer from 
inadequate data, especially when borrowers who are struggling 
to pay back student loans need access to more affordable 
repayment options.
    So, can you talk about how improved data in student loan 
programs could lead to targeted interventions that actually 
prevent defaults and allow policymakers to evaluate the full 
cost benefits of IDR?
    Mr. Delisle. You know, I will just reiterate that the 
suggestions I have around making data available to Federal 
Government already collects and actually compiles and submits 
to various agencies just getting that out. So it is not 
necessarily the same kind of privacy and consumer-related 
information.
    But, you know, I will point out that related to the GAO 
report, you know, this sort of making hasty changes, that is 
true. I think we want to have data out and know what those 
changes mean, but I would also point out that because we have 
the programs before we have had the data means we hastily 
enacted them.
    But I do think it is important to get this information out 
so that everybody--and to the point of Congressman Courtney 
earlier, scrutinizing the President's budget numbers, you know, 
making the data available would allow a lot of other people to 
look at those and scrutinize them as well.
    Ms. Bonamici. Thank you very much. I see my time has 
expired. Thank you, Madam Chair.
    Mrs. Foxx. Thank you very much. Mr. Krishnamoorthi, you are 
recognized for 5 minutes.
    Mr. Krishnamoorthi. Thank you, Madam Chair. As you folks 
know, this spring thousands of students made one of the most 
consequential investment decisions of their lifetime choosing 
which institutions of higher education to attend. Before making 
such a consequential investment, wouldn't it make sense for 
students to have all available data so they can make the most 
informed decision as possible? We do this when buying a car or 
a house, so why not with an education?
    With that in mind, I would like to ask you a series of 
questions on ways Congress can help empower prospective 
students and families with the information they need to make 
better informed decisions.
    Ms. Voight, to help students and families make a more 
informed decision when choosing a college, in your opinion what 
data points would give students the information they need to 
help make the best informed decision about higher education?
    Ms. Voight. Students need information about outcomes, in 
particular they need to know their chances of graduating, their 
chances of transferring, if that is what they want to do, and 
they need to know their likelihood of success in the workforce 
after they leave college, particularly as they are making 
decisions about how to pay for college, whether to take on 
student loans, and how much to work to pay for the tuition and 
the cost of education.
    I think underlying all of this in a lot of the 
conversations today, questions around student choice and 
allowing students to make really informed choices about the 
best institution and the best program for them. And they need 
that information, as you mentioned, to be able to make those 
informed decisions.
    Mr. Krishnamoorthi. By the way, do any colleges or 
universities currently provide that type of data?
    Ms. Voight. Information on graduation rates are available 
through IPEDS, but they are limited to only first-time, full-
time students, so they are missing large portions of the 
population. And information on earnings, institutions simply 
don't have the capacity to collect that information accurately 
and completely to provide it to students.
    Mr. Krishnamoorthi. Got it. Ms. Voight, opponents of 
overturning the student unit record ban cite privacy concerns. 
In your opinion, how can we balance student privacy concerns 
with a growing interest in measuring these college outcomes as 
you just described?
    Ms. Voight. Privacy needs to be a core component of the 
development of any data system. Whether it is student level or 
not, privacy needs to be a fundamental value held in the 
development of any system. And so we need to have in place the 
proper protections for student privacy while also protecting 
students' right to information to make those difficult choices 
and decisions.
    So, we need protections like minimizing the data that are 
collected to only the information that is really necessary to 
answer questions about college access and success, and cost and 
outcomes. We need to have clear policies in place for any 
misuse of data, penalties for misuse of data, prohibitions 
against the wrongful use of data, selling data, or using it for 
law enforcement purposes.
    Kind of the underlying principle here should be that data 
should be used to help students and never to harm students.
    Mr. Krishnamoorthi. Right. Thank you for your responses. 
You know, student debt is approaching $1.4 trillion, the 
largest it has ever been. We need to ensure families are making 
smarter investments with all readily available information in 
order for students to make smarter choices and help drive down 
student debt.
    I am a cosponsor of the Bipartisan College Transparency 
Act, introduced just last week by Representatives Mitchell and 
Polis. This bill calls for the creation of a secure data system 
within the U.S. Department of Education's National Center for 
Education Statistics, and would overturn the ban on collecting 
individual student data that track enrollment and graduate 
success.
    Most importantly, eliminating data barriers will inform 
students how others with their backgrounds have succeeded at an 
institution of higher education, and help point them towards 
schools best suited to their unique needs and desired outcomes.
    Thank you, again, for your testimony.
    Mrs. Foxx. Thank you, Mr. Krishnamoorthi. Ms. Davis, you 
are recognized for closing comments.
    Ms. Davis. Thank you very much, Madam Chair. And I also 
want to thank the witnesses here as well once again. I think 
that it was certainly a good learning experience for all of us, 
we got a lot of data, a lot of information both. And I know 
that there is no question that, you know, we have plenty of 
data, as we said, but trying to make it readily available to 
students and their families to make good decisions is what we 
are after.
    And I think, Madam Chair, I am glad that we have a 
bipartisan bill that is looking at risk, benefits, a number of 
issues, and that gives us really a way of responding and 
certainly working through and clarifying a number of issues 
that have been raised today.
    And I appreciate the fact that the authors were quite 
interested in feedback from those of you in the audience as 
well, who have been here and stayed with us. I think almost 
everybody here has been here from the beginning of our hearing 
and that is very helpful to us and certainly to the witnesses 
as well.
    We welcome your feedback and would very much be pleased to 
have those reactions to at least the piece of legislation that 
we have been talking about today. It is certainly not the only 
piece that addresses these issues, but it is something 
important for us to use and to build on.
    Thank you very much, Madam Chair.
    Mrs. Foxx. Thank you, Congresswoman Davis. I want to, 
again, thank all of you for your testimony today. This has been 
a great conversation about what data is available, who should 
have access to it, and what we should do with it. A phrase we 
have used on the committee a lot today also is to ask 
accountability to whom and for what. That fits here.
    We have also heard about the need to balance risk versus 
reward when it comes to what data we determine is most helpful 
to students, families, and taxpayers in general.
    One note I think we need to add is a look at privacy. When 
does a person's right to be left alone get waived for the need 
for better information? And once we decide that, we must have a 
conversation about securing the data that is collected. I also 
want to point out that Dr. Schneider and others have mentioned 
that some States have great information to be shared with 
parents and students.
    And I hope we will see more States develop such systems, 
because I frankly think a 50-State mechanism is better than the 
Federal Government being involved. Again, because we know the 
Federal Government has a lousy record of keeping information 
about individuals private, and that is, we don't need to go 
more places when we aren't doing a good job of keeping what we 
have.
    We have also sparked a conversation about what is the point 
of higher education? Societies long thought that it is about 
getting a job. And someone ordered a study, which I want to 
pursue looking at a little bit more, that 80 percent of 
students going on after high school say they want to get a job, 
a good-paying job. Is that something the Federal Government 
should look at or measure?
    Another issue we have touched on relates to giving students 
in the whole issue, and parents, information to make good 
decisions. However, our colleague just made the analogy that if 
you go out and buy a car, you have lots and lots of information 
before you buy that car.
    But, I suspect, if we did a study of people buying a car we 
would find out that many people make a decision on buying a car 
on emotion and personal preference, and it has nothing to do 
with making the best decision based on objective facts. And the 
same thing is true with choosing where to go to a college or 
university. Many people have lots of information, but they 
choose to go to a place based on where their father or mother 
went, where their brother or sister went, how nice the weather 
was that day.
    My understanding is that colleges have done this study, and 
if you have a great day when you go visit that school, you are 
much more likely to go there. If it is raining that day, you 
are much less likely to go there. So, the Federal Government 
can provide a lot of information, but we cannot control how 
people make decisions and should not control how people make 
decisions.
    So, while I think this has been a wonderful hearing today, 
I think we all agree, we are going to continue to have this 
debate. As we look at reauthorizing the Higher Education Act, 
we are going to be having continual debate about what is the 
information we need and what decisions and what should the 
Federal Government do in this regard.
    So, again, thank you all very much for being here and 
sharing your time and expertise. The meeting is adjourned.
    [Additional submission by Mr. Messer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    [Questions submitted for the record and their responses 
follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mr. Schneider's responses to questions submitted for the 
record follow;]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
